           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       PAYMENTS TO SPOUSES
       ELIGIBLE FOR HIGHER
       RETIREMENT BENEFITS

   December 2008   A-09-08-18007




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   December 16, 2008                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Payments to Spouses Eligible for Higher Retirement Benefits (A-09-08-18007)



        OBJECTIVE

        Our objective was to determine whether beneficiaries receiving spousal benefits were
        eligible to receive higher retirement benefits on their own earnings records.

        BACKGROUND
        The Social Security Administration (SSA) administers the Old-Age, Survivors and
        Disability Insurance program under Title II of the Social Security Act.1 This program
        provides monthly benefits to retired and/or disabled workers and their families and to
        survivors of deceased workers. Retired workers’ families include benefits for spouses;
        however, spouses with sufficient earnings, referred to as quarters of coverage, may
        become dually entitled to Title II benefits on their own earnings record.2

        Individuals receiving spousal benefits may have also earned sufficient quarters of
        coverage to be eligible for higher retirement benefits on their own earnings record.
        Their retirement benefits may be further increased for any month in which they did not
        receive a monthly benefit after full retirement age (FRA). The amount of the increase,
        referred to as a delayed retirement credit (DRC), depends on the number of months an
        individual was at FRA or older, fully insured, and eligible for retirement benefits but did
        not receive a monthly benefit. A DRC is earned for each month beginning at FRA up to
        age 70.3

        SSA annually performs the Widow(er)’s Insurance Benefits/Retirement Insurance
        Benefits (WIB/RIB) operation to identify and notify surviving spouses who are eligible for
        higher retirement benefits at FRA and age 70. The WIB/RIB operation provides

        1
            The Social Security Act § 201 et seq., 42 United States Code (U.S.C.) § 401 et seq.
        2
            SSA, Program Operations Manual System (POMS), RS 00301.101 and RS 00615.020.
        3
            The Social Security Act § 202 (w), 42 U.S.C. § 402 (w).
Page 2 - The Commissioner

surviving spouses with up to three notices during their lifetime: at FRA, age 70, and
approximately 1 year after age 70.4 SSA does not send similar notices to spouses who
are eligible for higher retirement benefits.

We estimate that, as of May 2007, there were approximately 123,000 spousal
beneficiaries over age 70 who were fully insured and eligible for retirement benefits
on their own earnings records.5

RESULTS OF REVIEW
SSA’s controls and procedures did not always ensure that spouses receive the highest
benefits due them at retirement age. This occurred because SSA did not have
procedures in place to identify and notify spouses when they became eligible for higher
benefits on their own earnings records as a result of DRCs and qualifying quarters of
coverage. Specifically, we estimated

     13,580 spouses were eligible for an additional $123.7 million in retirement benefits
      from February 1993 to January 2008 had they been paid on their own earnings
      records after attaining age 70. On average, each spouse could have received an
      additional $9,112 in benefits.

     Of these individuals, 12,340 spouses could receive an additional $209.0 million in
      retirement benefits over their remaining life expectancies.6 On average, each
      spouse could receive an additional $16,937 in benefits.

We also estimate that 4,940 spouses were eligible for an additional $27.3 million in
retirement benefits from April 1986 to October 2003 had they been paid on their own
earnings records between FRA and age 70 (see Appendix C). On average, each
spouse could have received an additional $5,522 in benefits.




4
    SSA, POMS, DG 00520.005.
5
  The Master Beneficiary Record (MBR) is divided into 20 segments, with each segment representing
5 percent of all records. We identified a population 6,170 records from Segment 18 of the MBR. As a
result, we estimate that 123,000 beneficiaries (6,170 x 20) over age 70 are receiving spousal benefits
but may be eligible for higher retirement benefits on their own earnings record.
6
 We used the life expectancy rates published by the Department of Health and Human Services,
Center for Disease Control and Prevention, (National Vital Statistics Report, Vol. 56, No. 9, Table 11,
December 28, 2007).
Page 3 - The Commissioner

Spouses Eligible for Higher Benefits at Age 70

We identified 6,170 beneficiaries who were receiving spousal benefits and later became
fully insured and eligible for retirement benefits on their own earnings records. Of the
200 spouses in our sample, 22 could have received $200,544 in additional payments
after age 70 had they been notified of their eligibility for higher retirement benefits.7
Based on our sample results, we estimate that 13,580 spouses were eligible for an
additional $123.7 million in retirement benefits on their own earnings records. We also
estimate that 12,340 of these beneficiaries would receive an additional $209.0 million
in retirement benefits over their remaining life expectancies (see Appendix C). The
following chart illustrates the average age of the 22 spouses in our sample upon their
initial entitlement to spousal benefits, as of the date of our review (January 2008), and
their projected life expectancy.



                       Spouses Eligible for Higher Benefits at Age 70

                       90
                       80
                       70
         Average Age




                       60
                       50
                       40
                                  64.5             75.9                     83.4
                       30
                       20
                       10
                       0
                             Entitlement to       As of                Projected Life
                            Spousal Benefits   January 2008             Expectancy



SSA policy states that an application for any Title II benefit generally includes all Title II
benefits for which an applicant may be eligible. When a claimant files an application
for spouse's benefits, SSA determines whether entitlement to retirement benefits exists
by (1) taking the application for retirement benefits or (2) obtaining a certified earnings
record on the claimant’s own Social Security number to determine whether the spouse
is fully insured. However, SSA policy does not currently require the Agency to routinely
process an application for retirement benefits whenever an application for spousal




7
    Most of these beneficiaries acquired insured status after they were entitled to benefits as spouses.
Page 4 - The Commissioner

benefits is filed.8 Only individuals who apply for reduced spouse’s benefits are deemed
to have filed an application for retirement benefits. Individuals who apply for unreduced
spouse’s benefits are not required to apply for retirement benefits.9

We found that SSA did not have procedures in place to identify and notify spouses
when they became eligible for higher benefits on their own earnings records based on
qualifying quarters of coverage and DRCs. Although SSA annually mails approximately
145 million Social Security Statements,10 eligible individuals who are over age 62 and
receive Title II benefits as a dependent or survivor on another earnings record are
excluded from these mailings.11

In addition, SSA annually performs the WIB/RIB operation to identify and notify
surviving spouses who are eligible for higher retirement benefits at FRA and age 70.
SSA conducts the WIB/RIB operation as an outreach project even though it is not
required to send notices to these individuals. However, SSA does not send similar
notices to spouses who are eligible for higher retirement benefits. As a result,
individuals receiving spousal benefits do not receive detailed information about their
eligibility for retirement benefits.

Our review disclosed that 22 spouses were over age 70 and had accumulated sufficient
earnings and/or DRCs to increase their monthly retirement benefits over their spousal
benefits. In most instances, these individuals were not eligible for retirement benefits on
their own earnings records when they applied for spousal benefits. Although DRCs may
be earned between FRA and age 70, there is no additional benefit increase after
age 70, even if individuals continue to delay taking benefits. Since these spouses had
already attained age 70, there is no incentive for these individuals to postpone applying
for retirement benefits on their own earnings records. We believe these individuals
should receive the highest benefit for which they are eligible.

As of January 2008, we determined that 22 spouses could have received an average of
$9,116 in additional retirement benefits after age 70. Some of these individuals were
eligible for higher retirement benefits as far back as February 1993. For 20 spouses,
we determined they could have received an average of $16,937 in additional retirement
benefits over their remaining life expectancies. In total, these individuals could have
received an average of $26,053 in retirement benefits after age 70.




8
     SSA, POMS, GN 00204.004.
9
     SSA, POMS, GN 00204.020.
10
  The Social Security Statement is an annual statement of recorded earnings and estimated
Social Security benefits based on those earnings.
11
     SSA, POMS, RM 01305.001.
Page 5 - The Commissioner

For example, one spouse in our sample was entitled to spousal benefits in
October 2000. The beneficiary became eligible for retirement benefits on his own
earnings record at age 68 in October 2003. However, the beneficiary did not receive
retirement benefits and earned 24 DRCs between ages 68 and 70. Our review
disclosed the beneficiary’s retirement benefits would have been higher than his
spousal benefits. As a result, the beneficiary could have received an additional
$12,057 from October 2005 to January 2008. Furthermore, if SSA notifies the
beneficiary of his eligibility for retirement benefits, he could receive an additional
$41,388 over his remaining life expectancy.

Spouses Eligible for Higher Benefits at Full Retirement Age

Of the 200 spouses in our sample, we found that 8 were eligible for higher benefits
between FRA and age 70. Had SSA notified the spouses upon their initial eligibility
for higher retirement benefits, they could have received $44,213 in additional
payments between FRA and age 70. Based on our sample results, we estimate
that 4,940 spouses were eligible for an additional $27.3 million in retirement benefits
between FRA and age 70 (see Appendix C).

We recognize that individuals who are entitled to benefits before age 70 will receive a
lower monthly amount over their lifetime than those who delay retirement until age 70.
However, according to SSA, for individuals who live to their average life expectancy,
the total amount of lifetime benefits is generally about the same. Nevertheless, by
taking benefits at an earlier date, these individuals receive payments over a longer
period of time.12

For example, one spouse in our sample earned sufficient quarters of coverage to qualify
for higher retirement benefits at FRA in June 2001. If SSA had notified the spouse of
her eligibility for higher benefits at FRA, she could have received $7,892 in additional
payments between FRA and June 2006, when she attained age 70. However, as of
January 2008, the individual continued to receive only spousal benefits.

CONCLUSION AND RECOMMENDATION

SSA’s controls and procedures did not always ensure spouses receive the
highest benefits due them at retirement age. This occurred because SSA did not
have procedures in place to identify and notify spouses when they became eligible
for higher benefits on their own earnings records. Specifically, we estimate that
(1) 13,580 spouses were eligible for an additional $123.7 million in retirement benefits
from February 1993 to January 2008 had they been paid on their own earnings records
after attaining age 70, (2) 12,340 spouses were eligible for an additional $209.0 million



12
     SSA Publication No. 05-10147, July 2008.
Page 6 - The Commissioner

in retirement benefits over their remaining life expectancies,13 and (3) 4,940 spouses
were eligible for an additional $27.3 million in retirement benefits from April 1986 to
October 2003 had they been paid on their own earnings records between FRA and
age 70 (see Appendix C).

Although SSA annually performs the WIB/RIB operation to identify and notify surviving
spouses who are eligible for higher retirement benefits at FRA and age 70, it does
not send notices to spouses who are eligible for higher retirement benefits. We believe
SSA should perform a similar operation to ensure beneficiaries receiving spousal
benefits are timely notified of their eligibility to receive higher retirement benefits on their
own earnings records.

We recommend that SSA identify and notify beneficiaries receiving spousal benefits of
their eligibility to receive higher retirement benefits on their own earnings records at
FRA and/or age 70.

AGENCY COMMENTS

SSA agreed with our recommendation. The Agency’s comments are included in
Appendix D.



                                                      S
                                                          Patrick P. O’Carroll, Jr.




13
  We used the life expectancy rates published by the Department of Health and Human Services,
Center for Disease Control and Prevention, (National Vital Statistics Report, Vol. 56, No. 9, Table 11,
December 28, 2007).
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                           Appendix A

Acronyms
DRC      Delayed Retirement Credit
FRA      Full Retirement Age
MBR      Master Beneficiary Record
MEF      Master Earnings File
OIG      Office of the Inspector General
RIB      Retirement Insurance Benefits
SSA      Social Security Administration
U.S.C.   United States Code
WIB      Widow(er)’s Insurance Benefits
                                                                     Appendix B

Scope and Methodology
From one segment of the Social Security Administration’s (SSA) Master Beneficiary
Record (MBR), we obtained a data extract of spouses in current, deferred, or
suspended payment status who were eligible for retirement benefits on their own
earnings records as of May 2007. We also obtained the earnings records for these
spouses from SSA’s Master Earnings File (MEF). Using this information, we identified a
population of 6,170 individuals receiving spousal benefits who may be entitled to higher
retirement benefits on their own earnings records.

To accomplish our objective, we

   reviewed the applicable sections of the Social Security Act and SSA’s Program
    Operations Manual System;

   interviewed SSA employees from the Western Program Service Center and Offices
    of Quality Performance and Eligibility and Enumeration Policy;

   selected a random sample of 200 spouses who were over age 70 and eligible for
    retirement benefits on their own earnings records;

   reviewed queries from SSA’s MBR, Online Computational Earnings, and
    Informational Certified Earnings Record System; and

   compared the amount of retirement benefits payable to the amount of spousal
    benefits received for eligible beneficiaries.

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve
our audit objective. We relied on the earnings records obtained from the MEF to
determine whether the spouses had sufficient earnings to be included in our population.
We did not test SSA’s automated systems to verify the completeness and accuracy of
the MEF. The entity responsible for the MEF is the Office of Earnings, Enumeration,
and Administrative Systems under the Deputy Commissioner for Systems.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
April and July 2008. The entity audited was the Office of Income Security Programs
under the Deputy Commissioner for Retirement and Disability Policy.




                                          B-1
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                         B-2
                                                                                     Appendix C

Sampling Methodology and Results
We obtained a data extract from one segment of the Social Security Administration’s
(SSA) Master Beneficiary Record (MBR) of beneficiaries over age 70 who were in
current, deferred, or suspended payment status. Based on the extract, we identified
a population of 6,170 beneficiaries receiving spousal benefits who were fully insured
and eligible for retirement benefits on their own earnings records as of May 2007.

Spouses Eligible for Higher Benefits at Age 70

We randomly selected 200 records to determine whether the spouses were eligible
for higher retirement benefits at age 70 or older on their own earnings records.
Using SSA’s automated systems, we determined the incremental delayed retirement
credits (DRC) earned and compared the amount of retirement benefits payable to
the amount of spousal benefits received. We found that 22 spouses could have
received $200,544 in additional payments after age 70. Estimating these results
to all 20 MBR segments, we determined that 13,580 spouses were eligible for an
additional $123.7 million in retirement benefits on their own earnings records.1

To estimate the amount of additional benefits these beneficiaries could receive in the
future, we multiplied the last additional monthly payment amount by the number of
months the beneficiaries were expected to live beyond January 2008. As a result,
we estimate that 12,340 beneficiaries could receive an additional $209.0 million in
retirement benefits over their remaining life expectancies.2 The following tables provide
the details of our sample results, statistical projections, and estimates.

Table 1 – Population and Sample Size

                       Description                                     Number of Beneficiaries
    Population Size (Data extract from 1 segment)                              6,170
    Sample Size                                                                  200




1
  The MBR is divided into 20 segments for processing and updating. The segments are determined by
the last two digits of the Social Security number. Each segment represents 5 percent of all records. We
randomly selected a sample of 200 records from our population of 6,170 records that we extracted from
segment 18 of the MBR.
2
 We used the life expectancy rates published by the Department of Health and Human Services,
Center for Disease Control and Prevention, (National Vital Statistics Report, Vol. 56, No. 9, Table 11,
December 28, 2007).


                                                    C-1
Table 2 – Spouses Age 70 and Older

            Description                  Number of Beneficiaries               Additional Benefits
    Sample Results                                       22                           $200,544
    Point Estimate                                      679                         $6,186,785
    Projection - Lower Limit                            470                         $2,240,305
    Projection - Upper Limit                            941                        $10,133,266
    Estimate for Entire MBR3                         13,580                       $123,735,700
    Note: All statistical projections are at the 90-percent confidence level

Table 3 – Estimated Additional Payments over Life Expectancy

            Description                  Number of Beneficiaries               Additional Benefits
    Sample Results                                  204                               $338,731
    Point Estimate                                 617                             $10,449,845
    Projection - Lower Limit                       418                              $5,649,395
    Projection - Upper Limit                       871                             $15,250,295
    Estimate for Entire MBR5                    12,340                            $208,996,900
    Note: All statistical projections are at the 90-percent confidence level

Spouses Eligible for Higher Benefits at Full Retirement Age

Based on our random sample of 200 records, we determined whether the beneficiaries
could have received higher retirement benefits between full retirement age (FRA)
and age 70. Using SSA’s automated systems, we determined the DRCs earned and
compared the amount of retirement benefits payable to the amount of spousal benefits
received. We found that eight spouses could have received $44,213 in additional
payments between FRA and age 70. Estimating these results to all 20 MBR segments,
we determined that 4,940 spouses were eligible for an additional $27.3 million in
retirement benefits between FRA and age 70.6 The following tables provide the details
of our sample results, statistical projections, and estimates.




3
    Represents the point estimate multiplied by 20 segments.
4
  We did not develop lifetime estimates for 2 of the 22 spouses because they were receiving higher
benefits as a surviving spouse (due to the death of the wage earner) than on their own earnings record.
5
    Id.
6
    See Footnote 1.


                                                       C-2
Table 4 – Spouses from FRA to Age 70

            Description                  Number of Beneficiaries                Additional Benefits
    Sample Results                                   8                                 $44,213
    Point Estimate                                 247                              $1,363,968
    Projection - Lower Limit                       126                                $503,398
    Projection - Upper Limit                       435                              $2,224,538
    Estimate for Entire MBR7                     4,940                             $27,279,360
    Note: All statistical projections are at the 90-percent confidence level.




7
    Represents the point estimate multiplied by 20 segments.


                                                        C-3
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      December 3, 2008                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Review of Payments to Spouses Eligible
           for Higher Retirement Benefits" (A-09-08-18007)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendation are attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "REVIEW OF PAYMENTS TO SPOUSES ELIGIBLE FOR HIGHER
RETIREMENT BENEFITS" (A-09-08-18007)

Thank you for the opportunity to review and comment on the report. Although the report
recommendation refers to our controls and procedures, it should note that we currently
notify the public of spouse's benefits through our website, publications, and during
interviews either in person or by phone. Specifically, an explanation of how someone
can receive a spouse's benefit at Full Retirement Age (FRA) and later receive a higher
retirement benefit on their own record is provided online at
www.socialsecurity.gov/retire2/applying6.htm,
www.socialsecurity.gov/retire2/yourspouse.htm,
http://www.socialsecurity.gov/retire2/yourdivspouse.htm, and
www.socialsecurity.gov/retire2/otherthings.htm.

Also, the following statement is currently in Retirement Benefits, Publication No. 05-
10035 and will be added to What Every Woman Should Know, Publication No. 05-10127
the next time it is updated:
       If you have reached your full retirement age, and are eligible for a spouse’s or
       ex-spouse’s benefit and your own retirement benefit, you may choose to receive only
       spouse’s benefits and continue accruing delayed retirement credits on your own
       Social Security record. You may then file for benefits at a later date and receive a
       higher monthly benefit based on the effect of delayed retirement credits.
Our response to the specific recommendation is provided below.

Recommendation 1

Identify and notify beneficiaries receiving spousal benefits of their eligibility to receive
higher retirement benefits on their own earnings records at FRA and/or age 70.

Comment

The recommendation suggests contacting at FRA and/or age 70. We agree and believe
the optimal approach for the agency and our beneficiaries is to initiate contact only at age
70.

We do not believe we should initiate contact at FRA because we are concerned that by
contacting these beneficiaries at the FRA, we may inadvertently induce claiming of
benefits at that age, regardless of the information provided in the letter. That is, some
individuals may simply apply for benefits in response to a contact by SSA. For these
reasons, we are also planning to contact other dually-eligible auxiliaries (widows) only at
age 70.

[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]


                                                 D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Daniel Hoy, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-08-18007.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                           Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                    Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                                Office of Investigations

OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                                   Office of the Counsel to the Inspector General

OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                              Office of External Relations

OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for those
seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                                 Office of Technology and Resource Management

OTRM supports OIG by providing information management and systems security. OTRM also coordinates

OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
